U.S. Department of Justice
Office of the Inspector General

For Immediate Release
Contact: Paul K. Martin (202) 514-3435



            Department of Justice Inspector General
              Issues Report on Treatment of Aliens
        Held on Immigration Charges in Connection with
     the Investigation of the September 11 Terrorist Attacks



       June 2, 2003 (Washington, D.C.) – Glenn A. Fine, Inspector General of
the U.S. Department of Justice, today issued a report examining the treatment
of aliens held on immigration charges in connection with the investigation of
the September 11, 2001, terrorist attacks.

       After the September 11 terrorist attacks, the Department of Justice
(Department) used federal immigration laws to detain aliens in the United
States who were suspected of having ties to the attacks or connections to
terrorism, or who were encountered during the course of the Federal Bureau of
Investigation’s (FBI) investigation into the attacks. In the 11 months after the
attacks, 762 aliens were detained in connection with the FBI terrorism
investigation for various immigration offenses, including overstaying their visas
and entering the country illegally.

        The Office of the Inspector General (OIG) examined the treatment of these
detainees, including their processing, bond decisions related to them, the
timing of their removal from the United States or their release from custody,
their access to counsel, and their conditions of confinement. The OIG’s 198-
page report focuses, in particular, on detainees held at the Federal Bureau of
Prisons’ (BOP) Metropolitan Detention Center (MDC) in Brooklyn, New York,
and at the Passaic County Jail (Passaic) in Paterson, New Jersey, a county
facility under contract with the Immigration and Naturalization Service (INS) to
house federal immigration detainees. We chose these two facilities because
they held the majority of September 11 detainees and also were the focus of
many complaints of detainee mistreatment.

      “While our review recognized the enormous challenges and difficult
circumstances confronting the Department in responding to the terrorist
attacks, we found significant problems in the way the detainees were handled,”
said Inspector General Fine.

       Among the specific findings in the OIG’s report:

       Arrest, Charging & Assignment to a Detention Facility:

   •   The FBI in New York City made little attempt to distinguish between
       aliens who were subjects of the FBI terrorism investigation (called
       “PENTTBOM”) and those encountered coincidentally to a PENTTBOM
       lead. The OIG report concluded that, even in the chaotic aftermath of
       the September 11 attacks, the FBI should have expended more effort
       attempting to distinguish between aliens who it actually suspected of
       having a connection to terrorism from those aliens who, while possibly
       guilty of violating federal immigration law, had no connection to
       terrorism but simply were encountered in connection with a PENTTBOM
       lead. [Chapter 4]

   •   The INS did not consistently serve the September 11 detainees with
       notice of the charges under which they were being held within the INS’s
       stated goal of 72 hours. The review found that some detainees did not
       receive these charging documents (called a “Notice to Appear” or NTA) for
       more than a month after being arrested. This delay affected the
       detainees’ ability to understand why they were being held, obtain legal
       counsel, and request a bond hearing. [Chapter 3]

   •   Aliens arrested in the New York City area generally were confined at the
       MDC, Passaic, or at another INS contract facility in northern New Jersey.
       While the INS made the ultimate decision where to house the
       September 11 detainees, it relied primarily on the FBI’s assessment of
       the detainees’ possible links to terrorism. FBI agents generally made this
       assessment without any guidance, and based on the limited information
       available at the time of the aliens’ arrests. Where a September 11
       detainee was housed had significant ramifications on the detainee’s
       detention experiences, because a detainee held at the MDC experienced
       much more restrictive confinement conditions than those held at
       Passaic. [Chapter 2]

   •   The Department instituted a policy that all aliens in whom the FBI had
       an interest in connection with the PENTTBOM investigation required
       clearance by the FBI of any connection to terrorism before they could be
       removed or released. Although not communicated in writing, this “hold

                                        2
       until cleared” policy was clearly understood and applied throughout the
       Department. The policy was based on the belief – which turned out to be
       erroneous – that the FBI’s clearance process would proceed quickly. FBI
       agents responsible for clearance investigations often were assigned other
       duties and were not able to focus on the detainee cases. The result was
       that detainees remained in custody – many in extremely restrictive
       conditions of confinement – for weeks and months with no clearance
       investigations being conducted. The OIG review found that, instead of
       taking a few days as anticipated, the FBI clearance process took an
       average of 80 days, primarily because it was understaffed and not given
       sufficient priority by the FBI. [Chapter 4]

       Bond and Removal Issues

   •   The Department instituted a “no bond” policy for all September 11
       detainees as part of its effort to keep the detainees confined until the FBI
       could complete its clearance investigations. The OIG review found that
       the INS raised concerns about this blanket “no bond” policy, particularly
       when it became clear that the FBI’s clearance process was much slower
       than anticipated and the INS had little information in many individual
       cases on which to base its continued opposition to bond in immigration
       hearings. INS officials also were concerned about continuing to hold
       detainees while the FBI conducted clearance investigations where
       detainees had received a final removal or voluntary departure order. The
       OIG review found that the INS and the Department did not timely
       address conflicting interpretations of federal immigration law about
       detaining aliens with final orders of removal who wanted and were able
       to leave the country, but who had not been cleared by the FBI.
       [Chapter 5]

   •   In January 2002, when the FBI brought the issue of the extent of the
       INS’s detention authority to the Department’s attention, the Department
       abruptly changed its position as to whether the INS should continue to
       hold aliens after they had received a final departure or removal order
       until the FBI had completed the clearance process. After this time, the
       Department allowed the INS to remove aliens with final orders without
       FBI clearance. In addition, in many cases the INS failed to review the
       detainees’ custody determination as required by federal regulations.
       [Chapter 6]

     The FBI’s initial assessment of the September 11 detainees’ possible
connections to terrorism and the slow pace of the clearance process had


                                         3
significant ramifications on the detainees’ conditions of confinement. Our
review found that 84 September 11 detainees were housed at the MDC in
Brooklyn under highly restrictive conditions. These conditions included “lock
down” for at least 23 hours per day; escort procedures that included a “4-man
hold” with handcuffs, leg irons, and heavy chains any time the detainees were
moved outside their cells; and a limit of one legal telephone call per week and
one social call per month.

      Among the OIG review’s findings regarding the treatment of detainees
held at the MDC and Passaic are:

       Conditions of Confinement

   •   BOP officials imposed a communications blackout for September 11
       detainees immediately after the terrorist attacks that lasted several
       weeks. After the blackout period ended, the MDC’s designation of the
       September 11 detainees as “Witness Security” inmates frustrated efforts
       by detainees’ attorneys, families, and even law enforcement officials, to
       determine where the detainees were being held. We found that MDC
       staff frequently – and mistakenly – told people who inquired about a
       specific September 11 detainee that the detainee was not held at the
       facility when, in fact, the opposite was true. [Chapter 7]

   •   The MDC’s restrictive and inconsistent policies on telephone access for
       detainees prevented some detainees from obtaining legal counsel in a
       timely manner. Most of the September 11 detainees did not have legal
       representation prior to their detention at the MDC. Consequently, the
       policy developed by the MDC that permitted detainees one legal call per
       week – while complying with broad BOP national standards – severely
       limited the detainees’ ability to obtain and consult with legal counsel. In
       addition, we found that in many instances MDC staff did not ask
       detainees if they wanted their one legal call each week. We also found
       that the list of pro bono attorneys provided to the detainees contained
       inaccurate and outdated information. [Chapter 7]

   •   With regard to allegations of abuse at the MDC, the evidence indicates a
       pattern of physical and verbal abuse by some correctional officers at the
       MDC against some September 11 detainees, particularly during the first
       months after the attacks and during intake and movement of prisoners.
       Although the allegations of abuse have been declined for criminal
       prosecution, the OIG is continuing to investigate these matters
       administratively. [Chapter 7]

                                         4
   •   The OIG review found that certain conditions of confinement at the MDC
       were unduly harsh, such as subjecting the September 11 detainees to
       having two lights illuminated in their cells 24 hours a day for several
       months longer than necessary, even after electricians rewired the
       cellblock to allow the lights to be turned off individually. We also found
       that MDC staff failed to inform MDC detainees in a timely manner about
       the process for filing formal complaints about their treatment.
       [Chapter 7]

   •   By contrast, the OIG review found that the detainees confined at Passaic
       had much different, and significantly less harsh, experiences than the
       MDC detainees. According to INS data, Passaic housed 400
       September 11 detainees from the date of the terrorist attacks through
       May 30, 2002, the largest number of September 11 detainees held at any
       single U.S. detention facility. Passaic detainees housed in the general
       population were treated like “regular” INS detainees who also were held
       at the facility. Although we received some allegations of physical and
       verbal abuse, we did not find the evidence indicated a pattern of abuse at
       Passaic. However, the INS did not conduct sufficient and regular visits to
       Passaic to ensure the September 11 detainees’ conditions of confinement
       were appropriate. [Chapter 8]

       “The Justice Department faced enormous challenges as a result of the
September 11 terrorist attacks, and its employees worked with dedication to
meet these challenges,” Fine said. “The findings of our review should in no way
diminish their work. However, while the chaotic situation and the
uncertainties surrounding the detainees’ connections to terrorism explain some
of the problems we found in our review, they do not explain them all,” Fine
said.

        In Chapter 9 of the report, the OIG offers 21 recommendations dealing
with issues such as the need to develop uniform arrest and detainee
classification policies, methods to improve information sharing among federal
agencies on detainee issues, improving the FBI clearance process, clarifying
procedures for processing detainee cases, revising BOP procedures for
confining aliens arrested on immigration charges who are suspected of having
ties to terrorism, and improving oversight of detainees housed in contract
facilities.

     The OIG completed its report on April 29, 2003, after which time it
underwent an extensive review process within the Department, the FBI, and


                                        5
other Department components prior to its public release. Today, the Inspector
General is releasing the OIG’s full report with only a few words or phrases that
contain specific identifying information “redacted” (blacked out) because they
are considered Law Enforcement Sensitive by the Department and the FBI.


            The full report is available on the OIG’s website at
          “www.usdoj.gov/oig” under the headings “What’s New”
                          and “Special Reports.”




                                       6
